<html>
<title> - NEW STATE VOTING LAWS II: PROTECTING THE RIGHT TO VOTE IN THE SUNSHINE STATE</title>
<body><pre>[Senate Hearing 112-373]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-373

NEW STATE VOTING LAWS II: PROTECTING THE RIGHT TO VOTE IN THE SUNSHINE 
                                 STATE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            JANUARY 27, 2012

                               ----------                              

                             TAMPA, FLORIDA

                               ----------                              

                          Serial No. J-112-58

                               ----------                              

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                                                        S. Hrg. 112-373

NEW STATE VOTING LAWS II: PROTECTING THE RIGHT TO VOTE IN THE SUNSHINE 
                                 STATE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 27, 2012

                               __________

                             TAMPA, FLORIDA

                               __________

                          Serial No. J-112-58

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE

73-813 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS AND HUMAN RIGHTS

                    DICK DURBIN, Illinois, Chairman
PATRICK J. LEAHY, Vermont            LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JON KYL, Arizona
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
       Joseph Zogby, Democratic Chief Counsel and Staff Director
                  Walt Kuhn, Republican Chief Counsel













                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................   152
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   243

                               WITNESSES

Ertel, Michael, Supervisor of Elections, Seminole County, 
  Sanford, Florida...............................................     7
McFall, Ann, Supervisor of Elections, Volusia County, De Land, 
  Florida........................................................     5
Nelson, Hon. Bill, a U.S. Senator from the State of Florida......     4
Parks, Daryl D., President, National Bar Association, 
  Tallahassee, Florida, statement................................    23
Pemberton, Sarah, President, Florida College System Student 
  Government Association, Clearwater, Florida, statement.........    28
Smathers, Bruce, Former Secretary of State of Florida, 
  Jacksonville, Florida, statement...............................    10
Smith, Daniel A., Professor of Political Science, University of 
  Florida, Gainesville, Florida, statement.......................    21
Wilkes, Brent A., National Executive Director, League of United 
  Latin American Citizens, Washington, DC, statement.............    25

                       SUBMISSIONS FOR THE RECORD

Brennan Center for Justice, University School of Law, New York, 
  New York, statement and attachments............................    37
Ertel, Michael, Supervisor of Elections, Seminole County, 
  Sanford, Florida, statement and attachments....................   156
FOCUS, Federation of Congregations United to Serve, Liz Buckley, 
  Executive Director, Orlando, Florida, January 19, 2012, letter.   179
FEA, Florida Education Association, Andy Ford, President, 
  Tallahassee, Florida, January 24, 2012, letter.................   180
Garcia, Evelyn T., President, Democratic Haitian American Caucus 
  of Florida (DHACF), Lake Worth, Florida, January 20, 2012, 
  letter.........................................................   183
Hancock, Phyllis, President, A. Philip Randolph Institute Central 
  Florida Chapter, January 23, 2012, letter......................   184
Harvey, Trevor D., President of Sarasota County, NAACP, Sarasota, 
  Florida, letter................................................   186
Hastings, Hon. Alcee L., a U.S. House of Representative from the 
  State of Florida, statement....................................   187
Herron, Michael C., Department of Government, Dartmouth College, 
  and Hertie School of Governance and Daniel A. Smith, Department 
  of Political Science, University of Florida, joint statment....   189
Lawyers Committee for Civil Rights, Under Law, Washington, DC, 
  statement......................................................   210
Leadership Conference on Civil and Human Rights, Wade Henderson, 
  President & CEO, Washington, DC, statement.....................   236
Long, Michael, Student Body President, New College of Florida, 
  Sarasota, Florida, statement...................................   245
McFall, Ann, Supervisor of Elections, Volusia County, De Land, 
  Florida, statement.............................................   246
Mi Familia Vota Education Fund, Jose Balasquide, Florida State 
  Director, Orlanda, Florida, statement..........................   251
Rodriguez, Eric, Vice-President, National Council of La Raza 
  (NCLR), Washington, DC, statement..............................   254
Neal, Beverlye Colson, National Congress of Black Women (NCBW), 
  Florida, statement, Washington, DC, statement..................   258
Nelson, Hon. Bill, a U.S. Senator from the State of Florida, 
  statement......................................................   262
Newton, Bill, Executive Director, Florida Consumer Action Network 
  (FCAN), Tampa, Florida, statement..............................   264
Parks, Daryl D., President, National Bar Association, 
  Tallahassee, Florida, statement................................   268
Pemberton, Sarah, President, Florida College System Student 
  Government Association, Clearwater, Florida, statement.........   273
Progress Florida, Mark Ferrulo, Executive Director, St. 
  Peterburg, Florida, statement..................................   279
Project Vote, Washington, DC, statement..........................   281
Sancho, Ion V., Leon County Supervisor of Elections, Tallahassee, 
  Florida, statement.............................................   285
Shalinsky, Barry M., PAVA Program Director, Disability Rights 
  Florida, Tallahassee, Florida, statement.......................   291
Simon, Howard L., Executive Director, American Civil Liberties 
  Union of Florida (ACLU), Tampa, Florida, statement.............   301
Smathers, Bruce, Former Secretary of State of Florida, 
  Jacksonville, Florida, statement...............................   313
Torres-Spelliscy, Ciara, Assistant Professor of Law, Stetson 
  University College of Law and Nina Hayden, Tampa Bay, Florida, 
  statement......................................................   328
Walker, Eddie J., Pastor, In God's Time Tabernacle of Jesus, 
  Orlando, Florida, letter.......................................   340
Wilkes, Brent A., National Executive Director, League of United 
  Latin American Citizens, Washington, DC, statement.............   342

 
NEW STATE VOTING LAWS II: PROTECTING THE RIGHT TO VOTE IN THE SUNSHINE 
                                 STATE

                              ----------                              


                        FRIDAY, JANUARY 27, 2012

                                       U.S. Senate,
        Subcommittee on the Constitution, Civil Rights, and
                                              Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:02 p.m., 
Hillsborough County Courthouse, 800 E. Twiggs Street, Tampa, 
Florida, Hon. Richard J. Durbin, Chairman of the Subcommittee, 
presiding.
    Present: Senator Durbin.
    Also Present: Senator Nelson.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. Good afternoon, everyone. It is an honor 
to be here in Tampa with my colleague Senator Bill Nelson at 
the Hillsborough County Court facility. This is a hearing of 
the U.S. Senate Judiciary Subcommittee on the Constitution, 
Civil Rights, and Human Rights, and it will come to order.
    Today's hearing is entitled ``New State Voting Laws: 
Protecting the Right to Vote in the Sunshine State.'' The 
hearing will examine the impact of State law H.B. 1355, 
Florida's new voting law.
    My name is Dick Durbin. I am the U.S. Senator from 
Illinois, and I chair the Senate Subcommittee on the 
Constitution, Civil Rights, and Human Rights, which is part of 
the Senate Judiciary Committee. For those who are attending 
their first Congressional hearing, let me explain a few items 
of procedure.
    I will deliver a brief opening statement and then recognize 
my colleague Senator Nelson to do it as well. Then we will turn 
to our witnesses for their opening statements, and Senator 
Nelson and I will then pose questions to the witnesses.
    We have two panels. We are very pleased that we have such a 
great turnout here, a large, enthusiastic, and interested 
audience for the hearing. It demonstrates the importance of 
this issue.
    At the outset I want to note, though, that the rules of the 
Senate when it comes to these hearings are rather strict. They 
prohibit outbursts or demonstrations of any kind at a public 
hearing. As Chairman, it is my responsibility to enforce the 
rules. If there are disruptions, I will warn those responsible, 
and if they continue to interrupt, I will have no choice but to 
ask for the removal of those persons from this hearing room.
    Let me say at the outset that, 4 days from now, hundreds of 
thousands of people across the State of Florida will go to 
their polling places to cast a ballot for the person they 
believe is best prepared to represent their political party in 
the next year's Presidential election. This time-honored 
tradition of public debate, intense campaigns, and the orderly 
selection of party nominees is the hallmark of our democracy 
and every democracy. Of course, the core element of that 
democracy is the constitutionally protected right of every 
citizen of legal age to cast a vote for the candidate of his or 
her choice.
    It is important that we recall that until the early 20th 
century, most American adults could not legally vote. And even 
after the franchise right to vote was legally expanded, a 
violent racist campaign prevented many African-Americans from 
voting. Sadly, the Jim Crow laws of that era were a reality in 
this State, and it was not until 1969 that Florida became one 
of the last States to ratify the 19th Amendment, which expanded 
the right of women to vote.
    Six constitutional amendments and numerous laws, 
regulations, and court decisions have helped make the promise 
of one person/one vote a reality in Florida and all across 
America. But we must be constantly vigilant against threats to 
these hard-fought victories.
    The Supreme Court Citizens United decision, which was 
issued 2 years ago this week, opened a floodgate of special 
interest money into campaigns. I do not have to tell people 
living in Florida about that. At the same time, over the course 
of last year, the right to vote has come under question, if not 
attack, nationwide. In more than 35 States, legislation has 
been introduced that threatens to roll back the progress our 
country has made over several generations, expanding and 
protecting the right to vote. More than a dozen States have 
already enacted laws that eliminate same-day registration, 
require voters to present restricted forms of identification 
before voting, reduce the number of early voting days, and make 
it harder for first-time voters to register. These new voting 
laws appear to be part of a coordinated and well-funded effort 
to reduce turnout among specific groups of people, namely, 
minority, young, low-income, and rural voters.
    In response to this disturbing trend, our Subcommittee on 
the Constitution, Civil Rights, and Human Rights held the first 
Congressional hearing in Washington to examine these new State 
voting rights laws in September of last year. At that hearing 
we learned that these new State voting laws threaten to keep as 
many as 5 million Americans from voting this year. As the 
testimony at today's hearing will demonstrate, many of these 
voters who may find their path to the ballot box blocked or 
filled with obstacles live right here in the State of Florida.
    Now, Senator Bill Nelson approached me and asked me to hold 
this field hearing because of his concern that the 
constitutionally protected rights to vote are under attack. 
Today's hearing is the first ever field hearing of this 
Subcommittee. For the record, the Republican members of the 
Committee were invited to attend. As well, they were given an 
opportunity to present witnesses. They have suggested a witness 
who will be on the first panel considered by the Subcommittee 
hearing. I want to thank Senator Nelson for his concern and 
advocacy on this issue, which I share, and I am happy that he 
is with me today.
    We will hear from today's witnesses about H.B. 1355 that 
made a number of changes in Florida's voting laws: first, 
cutting the number of early voting days almost in half, from 14 
to 8; second, eliminating early voting on Sunday before the 
election; third, requiring third-party organizations that 
register voters to register with their State and meet an array 
of onerous administrative requirements or face hefty fines of 
hundreds or even thousands of dollars; requiring Florida 
residents who have moved within the State and are updating 
their addresses at their polling site to vote a provisional 
ballot. For the record, more than 40 percent of the provisional 
ballots were not counted in our last election.
    Governor Rick Scott signed H.B. 1355 into law last year in 
Florida. In September of last year, I sent the Governor a 
letter asking whether he planned to take any action to ensure 
that H.B. 1355's new restrictions would not disenfranchise 
legally able voters in Florida. To date, the Governor has not 
responded to my letter.
    I also invited Governor Scott to attend this hearing today, 
hoping he would come personally to explain his support for H.B. 
1355 and answer the questions raised about the law. I am 
disappointed that he will not be able to join us. Had Governor 
Scott or a designated representative of his administration 
accepted our invitation, they would have had an opportunity to 
answer some pretty important questions.
    Was the provision of H.B. 1355 that eliminates early voting 
on the Sunday before an election specifically targeted to 
reduce the turnout of African-American and Latino voters who 
make up an overwhelming number of voters who show up on the 
Sunday before the election?
    Did the Florida Legislature anticipate that H.B. 1355's new 
administrative requirements for third-party voter registration 
groups and the threat of fines imposed would force groups like 
the League of Women Voters, Rock the Vote, and the Boy Scouts, 
as well as other respected organizations to suspend their 
nonpartisan voter registration drives?
    Why does H.B. 1355 require Floridians who attempt to update 
their addresses on election day to cast provisional ballots, a 
large percentage of which are not counted in the final result?
    I am pleased, though, that the Governor, if he could not 
attend, that we do still have a distinguished panel--two panels 
of witnesses who will provide insight. Before recognizing 
Senator Nelson for an opening statement, I am going to ask 
consent for the record for him to participate in today's 
hearing and make it clear that it has been my practice in 
Washington to invite Senators, even if they are not members of 
the Committee or Subcommittee, but have an intense personal 
interest or a local interest in the issue to participate. So 
this is not a new approach, but for the record, I am asking 
consent for the participation of Senator Nelson, and without 
objection, he is recognized.
    Senator Nelson.

STATEMENT OF HON. BILL NELSON, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

     Senator Nelson. Thank you, Mr. Chairman, and thank you for 
holding this historic, first time your Subcommittee in a State 
where we have a serious question of the civil rights of people 
being denied.
    All of us agree that the right to vote is a precious right, 
and it sets apart the United States from a lot of the countries 
of the world. In our own country, so many times young men and 
women have put on the uniform of this country to defend it, and 
one of those things they are defending is the right to vote. 
And we have seen in our history when this right has been 
constricted that painfully the country has come through the 
experiences realizing that the right to vote and to be able to 
cast that ballot without obstruction is the way that our 
Constitution envisions that America should be operated.
    And as you have eloquently pointed out, Mr. Chairman, that 
right is paramount among all constitutional rights. We, the 
people, emanate and give adherence to the right to govern us, 
but we select those who govern. When that right is impeded, 
then the very Government itself is threatened.
    Now, of all places, Florida, what we went through in the 
year 2000 in a Presidential election, seeing the inability of 
voters to cast a ballot and to cast it to be counted as they 
intended, to the credit of the State of Florida, after that 
experience they made the laws of Florida such that it was 
easier to vote. Thus, we had early voting, and thus, the old 
absentee ballot where you actually had to swear that you were 
going to be absent on the day of voting, that was changed to 
vote by mail. And, of course, organizations such as the League 
continued to register voters, and for decades that law was such 
that once they registered a vote, they had 10 days in which to 
turn those names in. And, of course, what we have seen is the 
constricting of those rights in this law that is now the law of 
the State of Florida.
    Ultimately, this is going to be decided by a judicial panel 
that is convened where the very law itself, the Voting Rights 
Act of 1965, is being challenged. And for a redress of these 
grievances, since apparently there is not going to be a 
changing of the law in the State legislature with the 
cooperation of the Governor, apparently it is going to have to 
be changed by the courts looking at this and determining if 
people are constricted in their right to cast their ballot.
    I think the witnesses that we are going to hear today will 
give ample testimony that that is the case, for when specific 
groups of people are targeted, when you find that voting on 
Sundays has been particularly popular with Hispanics and 
African-Americans, and you take away one of those Sundays in 
the law, when you find that, as we have already mentioned, the 
League of Women Voters cannot take the chance that one of their 
members, in doing a civic good, is going to be fined up to 
$1,000, when you see the enormous participation because young 
people for a change started getting excited about Government 
and politics, as we were in my generation, and then along came 
a lot of changes, and the unpopularity of the Vietnam war and 
the souring of young people on what was going on in politics 
and Government, and yet they got energized once again. And that 
college student wants to go down and register, and they 
register. And then if that college student, under the existing 
law, then happens to go down on election day to try to vote, 
show me your identification, they pull out their driver's 
license; their driver's license shows the address in another 
county where they grew up with their parents, and they are not 
going to get a ballot. They are going to get a provisional 
ballot. And the facts are facts. Look how many provisional 
ballots were not counted in the last Presidential election.
    And so, Mr. Chairman, I cannot thank you enough for 
convening this hearing. I am looking forward to this testimony. 
Thank you very much.
    Chairman Durbin. Thank you very much, Senator Nelson.
    The first panel I invite to the witness table: Ann McFall, 
Michael Ertel, and Hon. Bruce Smathers. If you would remain 
standing for just a moment, it is the custom of the Committee 
to swear in the witnesses. Please raise your right hand. Do you 
affirm the testimony you are about to give is the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Ertel. I do.
    Ms. McFall. I do.
    Mr. Smathers. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
three witnesses have answered in the affirmative. I will 
recognize each one for an opening statement, and then Senator 
Nelson and I will ask some questions.
    Ann McFall is the supervisor of elections in Volusia 
County. Did I pronounce that correctly?
    Ms. McFall. Yes.
    Chairman Durbin. I am a stranger to this area, and I do not 
want to mispronounce it.
    Previously, she was owner of McFall and Associates, an 
accounting and tax service. She served for 8 years on the 
Volusia County School Board and 6 years as Volusia County 
Council member, including a stint as chair of both the School 
Board and the County Council. Supervisor McFall has served on 
the Board of Directors for the Florida State Association of 
Supervisors of Elections. She graduated from Stetson University 
with a bachelor's degree in business administration, majoring 
in accounting.
    At this point, Supervisor McFall, the floor is yours. We 
will give you 5 minutes, and there will be some flexibility if 
you need a little extra, so please proceed.

   STATEMENT OF ANN McFALL, SUPERVISOR OF ELECTIONS, VOLUSIA 
                    COUNTY, DE LAND, FLORIDA

    Ms. McFall. Thank you, Senator, and Senator Nelson as well. 
Welcome to Florida.
    Thank you for giving me the opportunity to bring to light 
some changes in the 2011 voting laws in Florida. Let me take a 
moment to explain that I have been an elected official in 
Volusia County, Florida, for 22 years. I am retiring as of 
December 31, 2012, and will not be running for any other 
office. There is no reason for me to go out on a limb against 
some of the law changes other than to use this as a forum to 
bring awareness.
    There are four areas of concern that stand out, in my 
opinion. Those are changes to early voting, changes to third-
party voter registration, address changes at the polls, and 
selection of the date of the primary in August of 2012.
    Early voting shall begin on the 10th day, changed from the 
15th day, before an election that contains State or Federal 
races and end on the third instead of the second day. Effects 
of these changes are significant. The legislature seemed to 
believe that it will save local Departments of Elections money 
in having early voting for fewer days. In reality it will cost 
my department more money. My data base of competent, well-
trained workers for early voting includes only so many workers. 
If 12-hour days is the hours decided, some workers will have to 
arrive at my office 1\1/2\ hours from the opening of the early 
voting site, stay until the last voter has voted, and come back 
to my office after closing and balancing, therefore causing 15-
hour days for 10 days. With a regular 40-hour work week as the 
norm, some of the workers will put in 100 to 150 hours in the 
work cycle for each election, causing more overtime than actual 
regular time.
    In my personal opinion, a change to Florida Statute 101.657 
that should have been made and was not was flexibility should 
have been given to the supervisor of elections to choose early 
voting sites from a broader choice. Currently, early voting can 
be held only at the Department of Elections main office, a 
satellite office that has been open at least 1 year, a public 
library, or a city hall. What is missing are community centers, 
college campuses, county buildings, parks, YMCAs, storefronts, 
malls, churches. You get the idea. I can count in Volusia 
County alone there are probably 30 to 35 of those places that 
it could use if given permission.
    Third-party voter registration, and this is why I have come 
out so publicly in arguing against 1355. Changes in the voting 
registration process are considered by many to be frustrating 
and unenforceable. This became apparent to me when my office 
received an envelope with approximately 50 completed 
applications from a New Smyrna Beach High School teacher who 
oversaw a voter registration drive of high school seniors at 
the beginning of the year. She waited a couple of weeks--
unknowingly breaking the law--in order to make sure all 
applications had been completed and given back to her. Because 
of this, I was forced to submit her name as being out of 
compliance with the new law. Two months later, I was forced to 
report a well-known community activist in the Daytona area as 
being out of compliance due to handing in four applications 
late. She was at a church function on a Friday evening, 
assisted four people in filling out the applications, and 
delivered them to my office on the Tuesday immediately 
following the function. She assumed that the 48-hour 
restriction began on the Monday that my office actually opened 
back up when, in fact, it began Friday evening as soon as she 
received the applications.
    Address changes at the polls. Previous to 2011, address 
changes from one county to another were permitted to be 
completed at any early voting site or at the correct precinct 
on election day. Changes to Florida Statute 101.045 now state: 
``Except for an active uniformed services voter or a member of 
his or her family, an elector whose change of address is from 
outside the county may not change the address and vote a 
regular ballot.'' As you mentioned, they have to vote 
provisional.
    But, yet, in another area of the election law, Florida 
Statute 97.072, the law has changed to allow an out-of-county 
address change to be made over the phone. Specifically, the law 
now states: ``If the address change is within the State and 
notice is provided to the supervisor . . . where the elector 
has moved, the elector may do so by contacting the supervisor 
of elections via telephone or electronic means.''
    In summary, that means if I go to an early voting site and 
I used to live in Mr. Ertel's county and I move to Volusia, I 
could call up on the outside of the early voting site, change 
my address, and go in and vote a regular ballot. If I go right 
into the polling place or the early voting site and change my 
address, I vote provisional. It just does not make sense.
    Volusia County has five colleges and universities located 
in the county: Stetson, Bethune Cookman, Embry Riddle, Daytona 
State College, and a UCF satellite campus. A majority of 
address changes in previous elections were actually from 
students who live somewhere else in the State but attend 
postsecondary schools in Volusia County and choose to vote in 
Volusia County. That is who it is going to impact.
    And, finally, the primary election date. Florida Statute 
100.061 has changed the primary election date to be held 12 
weeks prior to the general election as opposed to 10 weeks. The 
August 14, 2012, election is a week before most universities 
open. In addition, in a year of apportionment there is a good 
possibility that reapportionment will not be complete before 
candidate qualifying begins on June 4, 2012.
    Again, thank you for the opportunity of appearing before 
you today. I will be glad to answer any questions you may have.
    [The prepared statement of Ms. McFall appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Supervisor McFall.
    Next is Michael Ertel. He is the supervisor of elections 
for Seminole County. Previously, he was in the public affairs 
field, including serving as Seminole County Government's first 
public information professional as the director of public 
relations for a 185-location bank and conducting post-disaster 
public relations for the State of Florida's tourism market 
agency Visit Florida. Prior to this, Supervisor Ertel served in 
the United States Army for 8 years, and we thank you for that 
service. He graduated from the University of Maryland 
University College, and at this time he will have an 
opportunity to make a 5-minute statement, but as I said to 
Supervisor McFall, there will be some flexibility if you need a 
little extra time. So please proceed.

 STATEMENT OF MICHAEL ERTEL, SUPERVISOR OF ELECTIONS, SEMINOLE 
                    COUNTY, SANFORD, FLORIDA

    Mr. Ertel. Great. Thank you very much, Senator Durbin and--
--
    Chairman Durbin. Is your microphone on? You want to check 
and see.
    Mr. Ertel. Is it here?
    Chairman Durbin. OK. Good.
    Mr. Ertel. Thank you very much, first of all, for holding 
the hearing, and this is such a perfect location to hold the 
hearing. Florida is the largest swing State in the country. The 
I-4 corridor traveling from here in Hillsborough County through 
Polk, Osceola, Orange, Seminole, and ending over in Volusia 
County, that is the largest swing area in the State. So these 
counties without a doubt are going to be the counties that 
could end up choosing the next leader of the free world. So 
this is a perfect location and perfect timing for the hearing. 
Thank you very much, Senator.
    But also because of that, I know that our elections are 
going to be scrutinized, and scrutiny is good. You know, folks 
taking a good, honest look at the process is fantastic and I 
like. Our elections law that Supervisor McFall mentioned is--
overall, Florida election laws, if I had a red pen, I would 
certainly make some changes to those laws. But, you know, I 
think what we have here is the most fair, transparent, and open 
system in the entire history of the world, is right here in the 
United States of America.
    Again, like I said, scrutiny and debate are fine, and, you 
know, it is the irony of Senator Durbin being here, it is--we 
have all heard jokes about Florida elections. We have all heard 
jokes about Illinois elections. And, really, the joke teller is 
you can tell their political affiliation based on who the 
victim of the joke is. So it is fun to be here with you.
    Today I want to rationally discuss three issues that seem 
to be at the heart of these hearings: voter registration, early 
voting, and eligibility verification.
    First of all, in voter registration, Supervisor McFall 
mentioned the school teachers and being unable to register 
voters at their site. You know, one thing we did in Seminole 
County to work around that was I deputized every single high 
school principal in Seminole County. What that did was that 
allowed them--they are chief deputy supervisors of elections 
with the very limited authority of registering the students 
that are in their schools to vote. That way the kids that go 
there 5 days a week--hopefully they are there 5 days a week--
are able to register to vote in a place that they are 
comfortable with. And we, of course, in the office also go 
there.
    You also mentioned the League of Women Voters and other 
organizations like that, canceling their registration drives. 
When they put out their--the Florida League put out the press 
release saying that they were going to be canceling their 
drives, I sent them an e-mail and said, ``Please do not. Please 
do not cancel the drives. We will go to your drive with you, 
and we will allow you to do the voter registration, and we will 
just take the forms.'' That way a voter would not have to wait 
10 days for their form to get turned in. They would not have to 
wait 48 hours for their form to get turned in. With our 
cooperation with the league, their form would be turned in 
immediately. I never received a response to that e-mail. Our 
local league, however, we are working in concert, and we are 
going to have an event in April.
    Early voting is something else that has been discussed. 
Florida, of course, according to the National Conference of 
State Legislatures data, is one of only 12 States in the entire 
country that has early voting on the weekends. We have early 
voting on the Saturday before the election day. Again, we are 
one of only 12 States with statewide early voting on the 
weekend.
    You mentioned the Sunday early voting period. I did a 
little research on this current election, the only statewide 
election that has taken place since 1355 has been passed, early 
voting on Sunday, and the communities you had mentioned were 
the black community and the Hispanic community, early voting on 
Sundays is actually the day that they were least likely to go 
to the polls. The first 5 days of early voting in this very 
election that is taking place right now, the day that they 
would least likely go to the polls is Sunday.
    Now, I think what we are going to find, again, in this 
first year of the implementation of this new law, I think what 
we are going to find is that most early voting will now take 
place on the Saturday before election day, and why is that? 
Because it is the final day of early voting, and people are 
realizing that this is my last chance to cast that early voting 
ballot. So I think that we are going to find that tomorrow is 
the busiest day of early voting throughout the State of 
Florida.
    Eligibility verification. You also discussed the students 
and moving from one place to another. As Supervisor McFall 
mentioned, there are ways to ensure that your address is 
updated as quickly as possible. But if a student wants to wait 
until the last day, until the very last day, to tell us where 
they live, I believe that it is fair to ask a government agency 
to allow us 2 days to ensure that they have not already 
previously cast a ballot. I think that is a fair number of days 
to ask. And contrary to what may have been heard before, you do 
not have to go to the Elections Office for your ballot to 
count. If you fill out an eligibility verification ballot or 
provisional ballot, you do not have to come back and send us a 
copy of your driver's license. We just say if you have not 
voted previously in another county, your provisional ballot 
will count. The number of provisional ballots that did not 
count last year, everybody mentions, you know, 40 percent, 40 
percent. By ``last year,'' I mean 2010. Forty percent, 40 
percent. Why? Why did those ballots not count? Nobody ever says 
why they did not count. It is because the voter was not 
qualified to cast a ballot at that precinct on that day. It is 
the idea they did not change--they were not registered to vote, 
which is most of them would be folks that are not registered to 
vote. So I think that eligibility verification is something 
good to do, and I think that it is something that is vital to 
do.
    I saw the press conference outside. It was very exciting. 
But I am not naive enough to believe that simply stating facts 
about the voting process will cause people who profit either 
personally, professionally, or politically from election chaos 
from amputating fear-mongering from their body of rhetoric.
    If you are a voter and you are watching this, your local 
elections officials want you to register to vote. We want you 
to cast a ballot, and we want that ballot to count. We are in 
the business of opportunity, so please allow us that 
opportunity.
    And if I can close with a short anecdote, thank you very 
much, Senator. My second election I held when I was supervisor 
of elections in Seminole County was a run-off election for 
mayor, and there were two candidates on the ballot. Only one 
race on the ballot, two candidates. We had a sailor who had 
previously requested an absentee ballot for all elections up to 
a certain point. We had to get him his ballot, but he was on a 
submarine, and the U.S. Postal Service does not have submarine 
service. So we tried to find a way to get him his ballot, so we 
said, OK, we will try to fax it to him. They would not allow us 
to fax it to him. We said we will try to e-mail it to him, and 
they said, ``No, no, we cannot accept attachments on an e-
mail.''
    So I called Washington, D.C., I called his voting 
assistance officer in his unit, I called--we spent tons of time 
trying to get this one sailor his one ballot for his election 
so he could vote for his candidate of choice for mayor in the 
run-off election.
    Finally, through enough persistence, hours and hours of 
persistence with our office and the navy voting assistance 
office and help from Washington, D.C., we were able to get them 
to open up the fax lines long enough so we could fax this 
sailor his ballot. We had a special public meeting of the 
canvassing board late at night our time to do this, and we were 
pretty excited about that, and we slapped palms and stuff like 
that. We finally got him his ballot.
    He did not vote.
    About 3 weeks later, he calls me, a couple weeks later, he 
calls me and he is, like, ``You guys went through hoops to get 
me my ballot.'' I said, ``Well, that is our job. We are in the 
opportunity business.'' And he is, like, ``But I did not vote 
because I did not know any of the candidates. And I am not 
going to throw my vote away simply because I have the 
opportunity to do it.'' And he understands the responsibility, 
and it is the whole moral of this entire hearing, I believe, is 
that we in the elections administration business are in the 
opportunity business. And as voters, we have the responsibility 
to ensure that we exercise this most precious gift from our 
Constitution in a responsible manner.
    Thank you, Senators.
    [The prepared statement of Mr. Ertel appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Supervisor Ertel.
    Bruce Smathers, a name well known in Florida and in 
Washington, was a member of the Florida State Senate and was 
elected Secretary of State of Florida from 1975 to 1978. After 
his political career, he practiced law, ran family orange and 
automobile businesses, and served on numerous private 
charitable boards. Mr. Smathers, of course, is the son of 
George Smathers, former Congressman and U.S. Senator from 
Florida. He earned his undergraduate degree in economics from 
Yale and a law degree from the University of Florida. He served 
in the navy and is a decorated Vietnam War veteran.
    Mr. Smathers, thanks for joining us. The floor is yours.

STATEMENT OF HON. BRUCE SMATHERS, FORMER SECRETARY OF STATE OF 
                 FLORIDA, JACKSONVILLE, FLORIDA

    Mr. Smathers. Thank you, Mr. Chairman, Honorable Senator, 
and guests. My name is Bruce Smathers. It is my privilege to 
appear before your Subcommittee.
    I want to explain why a retired public servant who served 
as a State Senator and then as Florida's Secretary of State is 
speaking out on these new election laws. The simple answer is 
that I am offended by what is happening, and I cannot sit idly 
by as the constitutional and civic rights of qualified 
Americans are eroded by this type of partisan legislation. That 
it is occurring in my native State makes it doubly offensive.
    With a family history of public service that goes back at 
least four generations, I feel the effort of the Florida 
Legislature and the Governor to tilt the elections for pure 
partisan purposes by suppressing the registration and voting 
opportunities of groups likely to vote Democratic is to me not 
only deplorable but disgraceful. The right to vote for all 
qualified Americans is a basic constitutional and civic right. 
It is the strength of our democratic system. Without it, all of 
our other treasured rights, whether it is the freedom of 
religion, freedom of speech, or freedom of association, will 
eventually evaporate. Our enjoyment of private property rights, 
freedom from undue government interference, and our rights to 
the due process of the law all ultimately exist because of the 
fundamental right of every qualified American citizen to vote.
    As a Vietnam veteran, I am acutely aware that during the 
last century over a hundred thousand Americans have died 
overseas to not only protect our democratic right to vote, but 
to provide that opportunity to millions of people around the 
world. We have just finished a war in Iraq in which thousands 
of our best and brightest died, tens of thousands more have 
been wounded, and between $1 and $2 trillion of our National 
treasure has been expended in an effort to provide the right to 
vote to the people of Iraq.
    Yet, after all that sacrifice, our brave men and women who 
return home find that, at least in Florida, their State leaders 
have engaged in an effort to erode that basic right of voting 
to thousands and probably tens of thousands of qualified 
Florida citizens. Many of those who bravely served in American 
forces overseas were Americans of African-American or Hispanic 
descent. They return to Florida to find their State government 
actively attempting to suppress the registration as well as 
restricting voting opportunities of members of their own 
heritage. I am not only offended, but as a former State Senator 
and Secretary of State, I am ultimately ashamed of these 
actions.
    During my tenure as Secretary of State, we passed reform of 
Florida's election laws, I am proud to say with bipartisan 
support of both Republicans and Democrats in both legislative 
chambers. The vast majority of House Bill 1355 has a positive 
or at least defensible ministerial impact on elections and has 
already been approved by the U.S. Department of Justice. 
However, it is my opinion there are specific provisions in this 
legislation that represent the greatest attack on registration 
and voting opportunity and thus voting rights of qualified 
Florida citizens in recent memory. As such, I believe the 
legislation should be referred to, tongue in cheek, as the 
``Registration and Voting Suppression Act of 2011.''
    I do not make this comment lightly, however. It is made 
after reviewing the legislation, how it originated, and the 
circumstances of its passage. I talked to legislators and 
citizens who participated in the debate surrounding its passage 
and its signing. I have talked to supervisors of elections and 
attorneys, read outside reports, as well as newspaper accounts 
of this bill.
    If the justification of House Bill 1355 to enhance the 
integrity of the electoral process or fight fraud were true, 
this bill would have attracted bipartisan support from both 
Republicans and Democrats in both chambers, the full support of 
the supervisors of elections and their association, widespread 
support among community organizations, as well as support from 
statewide media. All of these groups as well as all Floridians 
want to enhance the integrity of our elections, want to prevent 
fraud and electoral abuse.
    Contrarily, this bill was and is seen as a highly partisan 
attempt by the Republican majority to tilt the electoral 
process in favor of the Republican Party. This judgment was 
affirmed by widespread criticisms of the bill in the State's 
major newspapers as well as a well-known effect on nonpartisan 
volunteer groups such as the League of Women Voters, teachers, 
the NAACP, La Raza, and others.
    It is my hope that this Committee will come to the 
conclusion that House Bill 1355 is designed to suppress voter 
registration and voter participation of groups such as African-
Americans and Hispanics, the elderly, the poor, students, and 
others who need assistance in registering and voting. I hope 
that you will find that this bill also violates Federal laws 
protecting these basic American rights because we have no hope 
in Tallahassee.
    Thank you very much.
    [The prepared statement of Mr. Smathers appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Smathers.
    Senator Nelson and I will now ask some questions, and let 
me start with a general question to the three of you. Flying 
into Florida, hearing this debate, I would draw one of two 
conclusions:
    Either, as Mr. Smathers just said, there is a political 
agenda here. Somebody is trying to keep certain people from 
voting or make it harder for them to vote.
    Or another conclusion: There is terrible voter fraud in 
Florida. Something had to be done to the laws.
    So, Supervisor McFall, what has been your experience when 
it comes to voter fraud in your jurisdiction or others and 
whether it has addressed anything that you have seen with this 
new law?
    Ms. McFall. Well, Senator, it is not because of voter fraud 
because voter fraud is not out there. After the 2000 election--
and I served on the canvassing board, the Bush-Gore recount, in 
Volusia County as a commissioner. After that election, the 
State of Florida implemented the Florida Voter Registration 
System. That is catching a whole lot of duplicates. For 
instance, moving from Seminole to Volusia, I fill out a new 
application. That will automatically catch it. That application 
also has a four-digit--the last four digits of your Social on 
there or your driver's license number. That has to be matched 
before that voter is activated as an eligible voter. There is 
not fraud in the voter registration process, and personally I 
do not care who hands in applications. If the applications are 
valid, it will show. If it is not valid, then they will be 
caught as well. And we have a great relationship with our 
State's attorney, so it is not fraud.
    Chairman Durbin. Do either of the other two witnesses 
disagree?
    [No response.]
    Chairman Durbin. Well, then let me ask this question of 
you, Supervisor Ertel. You have said, and I quote you, ``We are 
in the opportunity business.'' Reducing the number of days for 
early voting, does that increase opportunity or decrease 
opportunity?
    Mr. Ertel. It depends on how you look at it.
    [Laughter.]
    Chairman Durbin. Please.
    Mr. Ertel. Pause for laughter. It depends on how you look 
at it, because, you know, the new early voting laws--the old 
voting laws, by the way, had 96 hours of early voting. The new 
early voting laws allow each supervisor the discretion of 
having up to 96 hours of early voting. So, you know, we--which, 
by the way, if we do--I first registered to vote in 1987 for 
the 1988 election, so that makes me 42 if anyone is doing their 
math. You know, when I first voted, there was no early voting. 
In 1992, when President Clinton was elected, there was no early 
voting. In 1996, when he was re-elected, there was no early 
voting. And, you know, we go down the entire process there. So, 
I mean, early voting is a new phenomenon.
    Absentee voting, the increase in absentee voting, is also 
something that is new over the past several decades where folks 
have excuse-free absentee voting. So, you know, back when I 
first registered to vote and years and years before that, and 
as you mentioned, you used to have to have an excuse to vote 
absentee. You had to promise, ``I am going to be at the 
doctor's office.''
    Chairman Durbin. So is it your conclusion then that these 
changes in absentee voting and early voting have created more 
opportunity until this new law?
    Mr. Ertel. Yeah, those--they created a longer time frame in 
which people can cast their ballot. So, for instance, if you 
take a look back years and years and years ago, there was 12 
hours to vote--12 hours to vote. Now we have 96 plus 12 hours 
to vote. People used to always complain about why is voting 
only on Tuesdays. Well, voting is not only on Tuesdays. Voting 
is on Saturday, Sunday, Monday, Tuesday, Wednesday, Thursday, 
Friday, Saturday, a couple days off, and again on Tuesday.
    Chairman Durbin. But not Sunday. Let me ask you this 
question----
    Mr. Ertel. Well, actually, Senator, I do not believe that--
I do not know if--in fact, I did some research. Of all of the 
Senators on the Committee, and I say this with full respect, I 
do not believe that any of the States of any of the Senators on 
this Committee have Sunday early voting the day before the 
election.
    Chairman Durbin. We have early voting in Illinois. We have 
not restricted it. We have expanded it, and I am behind 
expanding it even more. I think we should give people as much 
opportunity as possible.
    Mr. Ertel. I do not think it is on Sunday, though, Senator.
    Chairman Durbin. Let me ask you this question: In terms of 
Seminole County, you have some discretion under this new law 
about how long you will be open during that early voting 
period. What are you going to do?
    Mr. Ertel. In November?
    Chairman Durbin. Sir, will you commit to opening early 
voting locations at the maximum number of locations in Seminole 
County and keeping them open and available to voters for the 
maximum number of days, 8 days, 96 hours, as allowed under the 
new law?
    Mr. Ertel. Absolutely. In the November election we are 
going to.
    Chairman Durbin. Good.
    Mr. Ertel. In this election we do not have those 12 full 
hours of early voting. We have from 10 to 6. In the November 
election we absolutely will. And if I can add one more thing 
about early voting.
    Chairman Durbin. Go ahead. Sure.
    Mr. Ertel. Thank you, sir. In years past, we were one of 
the only counties in the State that had early voting on the 
Sunday before the election. We saw a higher turnout--again, not 
because it was on Sunday but because it was the final day of 
early voting. As people are realizing, as the campaigns are 
coming to a conclusion, folks are realizing, ``This is my last 
chance to go to the polls early.''
    Chairman Durbin. Let me ask you about the overture which 
you made to the League of Women Voters when they said they were 
going to cancel registration. That was a noble gesture on your 
part, and did you make the same overture to other organizations 
that had historically been engaged in voter registration, 
nonpartisan voter registration?
    Mr. Ertel. Not only did I make it personally, I put out a 
news release and said, ``Do not cancel your registration drive. 
We will go there''--and we have done it for the past year in 
places, and folks have called us on the offer and said, 
``Absolutely, we would love for you to do that and come and do 
the voter registration drive for us.''
    Chairman Durbin. That was not required by law, though, was 
it?
    Mr. Ertel. I wish that all supervisors in the State would 
do that, and I think they will. I really do, because, I mean, I 
know every single supervisor of elections in the State of 
Florida, and I know that they are all very dedicated to the 
process.
    Chairman Durbin. Was that required by law? That was my 
question.
    Mr. Ertel. No. I mean, it is also not required by law for a 
supervisor of elections to show up to work every single day, 
but we do because we are dedicated and we love the process.
    Chairman Durbin. So the point I am trying to get to is when 
we are talking about protecting people's rights and we want 
some guarantee of consistency and uniformity, your overture to 
the League of Women Voters, as noble as it was, is not required 
of every supervisor of elections. Is that true?
    Mr. Ertel. To me, writing the League of Women Voters and 
offering that was not because of Florida law. It is because of 
my----
    Chairman Durbin. That is the point.
    Mr. Ertel [continuing]. Dedication to the process.
    Chairman Durbin. That is my point. I thank you for that 
very much.
    Let me turn over the questioning to my colleague Senator 
Nelson.
     Senator Nelson. Thank you, Mr. Chairman.
    Ms. McFall, you noted that there was no consultation 
between the Florida Legislature and the supervisors of 
elections on the changes to the voting laws, and I am quoting 
from your testimony, ``It was almost as if the deal was done.'' 
This has been reiterated in the press by other supervisors of 
elections and has been reiterated in other statements submitted 
for the record.
    So no one reached out to you in getting your opinion when 
this legislation was being considered?
    Ms. McFall. No one. Not even the Volusia delegation, which 
I have a great relationship with. That is one of the first 
times I have not heard from anyone.
     Senator Nelson. It is my understanding that on early 
voting, which, as I noted in my earlier comments, because of 
the horrible experience that we had in 2000, in order to make 
it easier to vote early voting was enacted and made it easier 
for seniors, for single moms, you go down the list, for people 
who are renters, for people who have to work long hours, 
sometimes two jobs to make ends meet, and they could then have 
a day where they could find it convenient to go and vote. And 
it is my understanding that allowed 96 hours of early voting.
    Am I correct that this new law under the discretion of the 
individual supervisors of elections can cut that down to 48 
hours, one-half?
    Ms. McFall. Yes. Yes, the minimum allowed is 6 hours per 
day.
    Senator Nelson. You talked in your statement about the 
impact of the law on the actual administration of elections. 
How much do you expect to spend beyond what you normally spend 
in order to comply with this new law?
    Ms. McFall. I am either going to have to pretty much double 
my early voting staff or, again, as I mentioned earlier, pay 
the overtime. Right now I have five sites, one in each county 
commission district. Each site costs about $15,000 to keep 
open--to open, keep open, and close. At my office it is a 
little less, so I am guessing that is going to probably get up 
to about the $25,000 range per site per election.
     Senator Nelson. You had written a guest column for one of 
the newspapers last year when this thing started happening in 
the press about the Volusia County High School teacher, and you 
said you saw the new law as so egregious that you felt you had 
to bring it to the attention of interested citizens. And that 
is not easy for you. You are going against your particular 
preference of a political party. What aspects did you find the 
most egregious?
    Ms. McFall. Well, the most egregious I found was it was 
done in the name of voter fraud, but I found that I was turning 
down Republican club presidents, I could not give them 
applications; Democratic club presidents. I was turning down 
the NAACP. I was turning--coming in to get applications. They 
had to be registered as a third party in order to receive these 
applications.
    Then if they went and registered as a third party, came 
back, then I had to spend 2 days, my staff, putting their 
number on the back of the application. I mean, this is somewhat 
demeaning to people I have known for 30 years, that we had to 
resort to sitting in a little room putting numbers on the back 
of the applications. It had to be their number. And then they 
had to come back in and see me or my registration division when 
they had their applications to make sure they got them in 
within the 48 hours. And then the coup de grace is I have to 
turn them in because they did not comply. That is what is so 
heartfelt about this. You know these people. They are your 
constituents. They are good people. And you had to turn them 
in.
     Senator Nelson. And on the previous question, if my 
mathematics is correct, you are talking about per election it 
is at least going to cost you $50,000 more.
    Ms. McFall. I would say easy.
     Senator Nelson. In your testimony, you also suggest that 
the Division of Elections is going to receive double the amount 
of provisional ballots because of this new law. Based on your 
experience, what are the key factors that lead you to believe 
that the number will be so high?
    Ms. McFall. Well, I mentioned earlier that Volusia County 
has the five universities in the county. The most active campus 
is Bethune Cookman. They literally have a march, a festival on 
campus on a certain day during early voting, and they march the 
2\1/2\ miles to early voting in a block. Two to three thousand 
young people are marching to go vote. Seventy percent of those 
kids have something wrong with their voter registration. Maybe 
they moved from one dorm to the next, something like that.
    So you could see where it is going to be even worse because 
if it is an out-of-state--if someone moves from Broward to 
Volusia, that is now going to be a provisional ballot. We are 
planning on doubling our provisionals because of this.
     Senator Nelson. You testified that fraud is not a 
legitimate reason for changing the law, and I am curious. It 
seems like that Florida was very progressive in having a 
Florida voter registration database that is available to the 
public. Tell us about this database and how that helps you as a 
supervisor avoid fraud.
    Ms. McFall. On election day or early voting, anywhere else 
I can pull up FVRS, Florida Voter Registration System, as can 
Mr. Ertel, and see who is registered anywhere in the State. 
Anywhere in the State. So if someone moved from Miami-Dade to 
Volusia, we could call Miami-Dade instantly and tell them this 
person now lives in Volusia. And that is what is done. That is 
the process.
    Not only that, as part of the database creation, we have a 
closer relationship with DMV, we have a closer relationship 
with Vital Statistics, if a person passes away. It is a much, 
much closer--we are talking to each other, the governmental 
agencies, and that is a good thing.
     Senator Nelson. And that database was paid for by Florida 
taxpayer dollars.
    Ms. McFall. Actually, most of it was HAVA dollars, Help 
America Vote Act, the Federal program.
     Senator Nelson. And it is to your credit that you 
interrelate all of that.
    Mr. Chairman, I do not want to overstate my time, so I 
will----
    Chairman Durbin. Take the time that you need, Senator 
Nelson. I will ask a question or two if you would like to come 
back.
     Senator Nelson. Please.
    Chairman Durbin. Supervisor McFall, I am really struck by 
this teacher who clearly was trying to do the right thing. You 
say she was a woman who waited a couple weeks after the voter 
registrations to turn them in.
    Ms. McFall. Right.
    Chairman Durbin. Which I assume under the old law would 
have been perfectly fine.
    Ms. McFall. She would have had 14 days under the old law.
    Chairman Durbin. And because she waited, she was out of 
compliance with the new law, and you were forced to submit her 
name. To whom did you submit her name?
    Ms. McFall. The Secretary of State.
    Chairman Durbin. Do you know what happened after that?
    Ms. McFall. Because of the publicity, I am afraid, he sent 
her a warning letter, and the letter was very patronizing, 
because they sent me a copy of it. And it was a slap on the 
wrist, but do not ever do it again, is exactly what he said in 
that letter.
    Chairman Durbin. What happened to those registration forms?
    Ms. McFall. We enter them. By law, we are required to enter 
the forms. And I will tell you, Senator, if that person, if 
Jill, the teacher, were not so honest and came in and just put 
them on the counter, we would not have known who handed those 
in. Not only that, she mailed them in with her return address 
on the envelope. If she wanted to commit fraud, she did not 
have to put a return address on it. Plus, she called my office 
to check to see if we got them. So, I mean, there was no intent 
whatsoever.
    Chairman Durbin. It seemed like a good-faith effort on her 
part----
    Ms. McFall. I truly believe that.
    Chairman Durbin.--to do something which most of us would 
applaud.
    Ms. McFall. Right.
    Chairman Durbin. Supervisor Ertel says the problem in 
Volusia County is you should be deputizing school principals.
    Ms. McFall. Well, I am glad you brought that up. My 
principals do not necessarily want that responsibility. Their 
superintendent and their school board said, ``We do not want to 
take that liability,'' because there is that $1,000 fine. So a 
typical high school might have 100 teachers, 150 employees. If 
they are out doing voter registration, that principal is now 
responsible.
    Chairman Durbin. Do you think that people who register 
should have a genuine concern about the penalties under the new 
law if they register improperly?
    Ms. McFall. Oh, I would think so, yes.
    Chairman Durbin. Would you consider that perhaps not just a 
concern but perhaps a fear?
    Ms. McFall. Certainly, especially for teachers who are 
working paycheck to paycheck.
    Chairman Durbin. Supervisor Ertel, is Supervisor McFall 
guilty of fear-mongering?
    Mr. Ertel. I think Supervisor McFall is doing everything in 
her county the way that she can do it. What she is not doing is 
trying to scare people into believing that their vote is not 
going to count.
    I want to make one small correction. Our principals are not 
under the third-party voter registration rule. They are 
actually deputy supervisors of elections, so they do not have 
the onus of any sort of fine or anything like that.
    So, no, I do not believe she is fear-mongering. What I do 
hear, though, throughout the country and the cold facts are, in 
every single election at least half of the candidates lose, and 
not all of them want to blame their own campaign. So what they 
do is they look at the process. And I am not talking one side 
or another. I am talking every election, all sides. So they 
want to take a look at the process. So I think that as election 
supervisors and election administrators, it is our role to make 
sure that the process is as transparent and as opportunity-
based as possible.
    Ms. McFall. Senator, if I may?
    Chairman Durbin. Certainly.
    Ms. McFall. We have to ask ourselves the question: Why do 
we have to deputize principals? This is a bad law. So why do we 
have to circumvent ourselves and try and make a bad law a good 
law? It is a bad law.
    Mr. Ertel. And if I might add, Senator?
    Chairman Durbin. Of course.
    Mr. Ertel. I agree that that portion of the law--if they do 
a rewrite of the law, I hope that they exempt the teachers and 
the principals from that because that is--you know, our high 
school juniors and seniors go there 5 days a week. They should 
be able to register to vote there.
    Chairman Durbin. How about the League of Women Voters? 
Would you exempt them, too?
    Mr. Ertel. We work hand in hand with our League of Women 
Voters.
    Chairman Durbin. I am asking if you would exempt them in 
the law.
    [Laughter.]
    Chairman Durbin. Mr. Smathers, there have been charges here 
of fear-mongering and misstating the impact of this law. You 
have been around long enough--and we are about the same age 
group here--to recall some of the early days in our lives when 
voting was truly suspect and under restrictions and people 
faced obstacles that American citizens should not have to face. 
Is it fear-mongering to be mindful of that and to suggest that 
any new law should be viewed in that same context?
    Mr. Smathers. Sir, I think that our past is well known, and 
I would not agree in part with the statement that there is 
fear-mongering.
    First of all, I would like to congratulate the supervisor 
for what he has done in Orange County and also the supervisor 
for what she has done in Volusia County. In my contact with the 
supervisors of elections----
    Chairman Durbin. Seminole, I believe.
    Mr. Smathers. Excuse me. I apologize. I was thinking of 
Bill Cowles.
    Chairman Durbin. Here I am correcting him, and I am from 
Illinois. What do I know?
    Mr. Smathers. But I also talked with Bill Cowles, but 
several points.
    First of all--and I said it in my statement, and I think 
everybody--at the local level, the supervisors of elections, 
the vast majority, are leaders in the efforts to expand voter 
registration opportunities as well as ensure that every ballot 
is counted. And that is not the question, I think, before the 
Committee. The question before the Committee is the State law, 
and as Ann said, you know, the problem is that the State law is 
bad and the supervisors of elections are having to trip all 
over each other so that they will not fall into the problems.
    I was speaking to a Republican of a very large county, and 
as I was talking to him, he said, ``Just yesterday a black 
church wanted to have a voter registration drive, and I went 
out there personally to ensure that it could be done and they 
would not have to fall under the law.''
    So what is happening, because they are eliminating the 
efforts of private volunteer registration organizations, the 
burden is not falling on the supervisor of elections, which is 
contrary to what we want to see. And the question would be, 
while that supervisor in that large county can help one church, 
what happens right before the general election when there are 
20 or 50 churches and other organizations who want to go out 
and register voters? They cannot send their overpressed people 
who are trying to prepare for the election out to help these 
volunteer organizations. They just do not have the manpower. 
And it is expensive in these times when local governments are 
so strapped for money.
    So while we do have a great law, this is a regression, and 
the issue, I think, is how we are regressing. I am sorry. I 
went too far.
    Chairman Durbin. No, you did not. I am glad you gave a 
complete answer on that.
    Here is what I draw from the first panel. No one is 
acknowledging any evidence of voter fraud that led to these 
changes, No. 1.
    No. 2, it will impose an additional hardship on 
supervisors, in your case, Supervisor McFall, up to $50,000 a 
year that your office will have to absorb, taxpayers will have 
to absorb.
    It also creates at least some hardship on voters and 
potential voters, restricting the opportunity for early 
voting--as we say, the ``opportunity business''--restricting 
the opportunity to 8 days, a situation where you have limited 
locations. There are many locations Supervisor McFall noted, 
which all sounded reasonable to me, good places to register 
people to vote, which you cannot do under the current 
situation. And this third-party registration issue where it 
takes an extra effort by the supervisor of elections to find a 
way, as Mr. Smathers just said, around the law's provision to 
allow people to in good faith register those who are 100 
percent legal and eligible to vote. That is what it boils down 
to.
    So a new, unreasonable hardship, from my point of view, is 
being created on voters in the State of Florida. I do not see 
why we would do that in this day and age. There are people 
literally fighting and dying as we sit here for the right to 
vote in countries like Syria, and we are finding ways to 
restrict the right to vote? That to me is not consistent with 
where we ought to be going.
    [Applause.]
    Chairman Durbin. Senator Nelson.
     Senator Nelson. Mr. Chairman, I know you need to get on to 
the second panel. I would just like, if I could, just one line 
of questioning.
    Mr. Ertel, on page 2 of your testimony, under discussing 
early voting, you say, ``Based on my data from this very 
election. . .'' What is the source of that data?
    Mr. Ertel. The data of who has cast a ballot.
     Senator Nelson. And you are talking about this 
Presidential Republican primary election?
    Mr. Ertel. Yes, Senator.
     Senator Nelson. So how many days of early voting is your 
databased on?
    Mr. Ertel. It is based on the first 5 days. I had to turn 
this in by yesterday, so it is based on the first 5 days of 
early voting.
     Senator Nelson. OK. I have been able to read some of the 
testimony of the second panel, and I think what you are going 
to see painted is a picture showing that certain groups, in 
fact, are being excluded by constricting the days, what is 96 
hours down to half, 48 hours, as well as constricting certain 
days to vote, as well as the out-of-county-residence 
requirement of identification, is going to exclude certain 
people. So if Supervisor Ertel is basing his testimony on 5 
days of present voting in a Republican primary where there is a 
limited turnout, then I think the record should reflect that.
    Mr. Ertel. And, Senator, if I may? Thank you, sir. I just 
did the query based on what we saw on the turnout among the 
African-American community and the Hispanic community. To me it 
does not matter what the party affiliation is. So the facts are 
about the African-American and the Hispanic community, 
immaterial of party affiliation.
    Chairman Durbin. I, too, have reviewed the testimony in the 
next panel, and I think you will find that there is a 
disproportionate turnout on the last Sunday from African-
Americans and Hispanics, and, clearly, you could not have 
calculated the last Sunday because you are only 5 days into 
this. So we will wait and bring in all the testimony, but let 
me at this point bring this panel to a close and give special 
thanks to all three of you, Supervisor McFall, Supervisor 
Ertel, and Mr. Smathers, for joining us, and we will now ask 
the second panel to come forward. Thank you.
    [Applause.]
    Chairman Durbin. Please do not get comfortable. If you 
would not mind raising your right hand, please. Do you affirm 
the testimony you are about to give will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Parks. I do.
    Ms. Pemberton. I do.
    Mr. Smith. I do.
    Mr. Wilkes. I do.
    Chairman Durbin. Thank you. The record should reflect that 
all four witnesses answered in the affirmative.
    Our first witness is Daniel Smith. He is a professor of 
political science at the University of Florida. Dr. Smith has 
published more than 40 scholarly articles, several books on 
subjects like direct democracy, campaign financing, and voting 
rights. He received his Ph.D. in political science from the 
University of Wisconsin-Madison--go, Badgers--and his B.A. from 
Penn State University.
    Dr. Smith, the floor is yours.

  STATEMENT OF DANIEL A. SMITH, PH.D., PROFESSOR OF POLITICAL 
      SCIENCE, UNIVERSITY OF FLORIDA, GAINESVILLE, FLORIDA

    Mr. Smith. Chairman Durbin, Senator Nelson, distinguished 
guests, and the rest of the audience, thank you for inviting me 
to testify today. My name is Daniel Smith. I am professor of 
political science at the University of Florida. My collaborator 
on this project, Professor Michael Herron at Dartmouth College, 
could not be here today.
    I come here today as a scholar, not as a partisan or a 
citizen activist. In my opinion, House Bill 1355 will likely 
hinder voter participation in Florida.
    First, with respect to early voting, the law reduces the 
number of days, as we have heard, from 14 to 8 and eliminates 
the final Sunday voting immediately preceding election day. The 
law also allows elections supervisors to reduce from a required 
96 hours to as few as 48 hours of early voting. That is how 
many hours they must be open--48 hours.
    The effects are real. In this current election, 
Presidential preference primary, there are 6 fewer days of 
early voting under the 8-day period as opposed to the 14-day 
period during the Presidential primary in 2008. That is a drop 
in net of early voting hours of about 30 percent across the 67 
counties.
    Early voting is incredibly popular in Florida. In the 2008 
general election, more than half of the 8.3 million Floridians 
who voted did so prior to election day, including some 2.6 
million voters who cast early in-person ballots. Based on our 
analysis of early voting patterns from the 2008 general 
election, H.B. 1355 is likely to have a differential effect on 
various demographic groups. This first slide shows the 
percentage of racial and ethnic groups that did not and that 
did vote early in 2008. What you can see and what is notable is 
not only the large share of early voters who are African-
American, about a fourth of all early voters were African-
American, but that more blacks cast early ballots in 2008 than 
actually did on election day in the 2008 general election: 
575,724 as opposed to 520,031.
    The next figure plots the composition of the early voting 
electorate by day by race and ethnicity over time from October 
20 through November 2, 2008. It is clear when you look across 
the lines that the fraction of whites drops on the first Sunday 
and the second Sunday as a proportion of the early voting 
electorate, and that the percentage of African-Americans and 
Latinos, represented by the triangle and the dot, spike up on 
those two Sundays. African-Americans accounted for 30 percent 
of early voters on the final Sunday, even though they comprise 
only 13 percent of the statewide electorate. Hispanic voters, 
who comprise just 11 percent of the statewide electorate in 
2008, accounted for 20 percent of early voters on that final 
Sunday.
    The next slide shows clear age differences with respect to 
who voted early in 2008. Older voters tended to vote earlier 
during the period of the first 5 days which have been now 
lopped off. Many of our seniors like to get their voting done 
early in those first 5 days. But what you see is the incredible 
spike up on the Friday and Saturday and Sunday relative to 
their population of younger voters, those under 22, and they 
disproportionately voted on that final Sunday. If you look at 
the squares, those who are under 22 made up a much higher 
proportion of those who voted on that final day relative to 
their small numbers compared to the seniors and those between 
23 and 65.
    The next slide shows that voters who registered in 2008--we 
had a massive registration increase in 2008 and 2007, but this 
just looks at 2008--they were more likely to vote in the final 
week, including the final Sunday, than those who registered 
before 2008. In short, the law has reduced the number of early 
voting days, has cut in half the required number of voting 
hours, and has eliminated early voting on the final Sunday 
before election day.
    Second, the law potentially dampens the ability of 
Floridians to register to vote, as we have already heard, and 
places burdens on these third-party entities, individuals and 
groups such as the League of Women Voters. And if you actually 
compare the Secretary of State's data from 2007 and 2011--I 
would do it for every month, but they do not have the data from 
November 2007--just look at December 2007 registration rates 
compared to December 2011 registration rates. It is almost a 
50-percent drop of the number of valid registrations that were 
put in. The statistic on there, the 90.8 percent versus the 
89.6 percent, indicates that actually under House Bill 1355 
there were less valid registrations submitted even though the 
League of Women Voters and other third-party entities are not 
involved. They are clearly not the reason why 10 percent, 
roughly, of all submitted forms are not valid.
    The last slide--and this goes directly to Supervisor 
Ertel's comments--looks at provisional ballots. The dirty 
little secret in Florida is that most provisional ballots do 
not count. In the 2008 general election, less than half of all 
provisional ballots cast were actually deemed to be valid: 
35,635 provisional ballots were cast, local canvassing boards 
after the election only validated 17,312 ballots.
    There is tremendous variation across the counties. Some, 
like Hillsborough County here, have a fairly high percentage of 
provisional ballots cast, around 60 percent. Others, however, 
reject disproportionately the number of provisional ballots 
cast. For example, only 6.3 percent of provisional ballots cast 
in Broward County in the 2008 general election were deemed to 
be valid by the canvassing board. Thousands of votes were not 
counted. And only 227 of the 740 provisional ballots cast in 
Mr. Ertel's Seminole County, 30.7 percent were actually deemed 
to be valid by his canvassing board. There are huge variations. 
Some of our counties, mostly small, have 100-percent validation 
rates of provisional ballots. As the other supervisor of 
elections, Ms. McFall, said, we are going to probably see a 
rise in provisional ballots.
    To conclude, in our opinion the new law will likely have a 
negative differential effect on early voting across many 
demographic groups in Florida, including racial and ethnic 
minorities, as well as youth. The law appears to be hindering 
third-party registration efforts and does not help to reduce 
the percentage of invalid registration forms that are 
submitted. And it may cause the number of provisional ballots, 
most of which currently go uncounted, to increase. Overall, 
then, a case can be made for Congressional oversight on H.B. 
1355 as it places considerable burdens on the right of citizens 
to vote in the Sunshine State.
    We thank you again for the opportunity to testify, and I 
look forward to answering any questions that you may have.
    [The prepared statement of Mr. Smith appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Professor Smith.
    Mr. Daryl Parks is here to testify. He is co-founder and 
managing partner of the law firm of Parks & Crump in 
Tallahassee, currently serving as president of the National Bar 
Association. He has held leadership positions, served on boards 
of a number of organizations. He received a bachelor's degree 
in political science and economics from Florida A&M University 
where he was student body president and founded the National 
Coalition of Black College Student Governments, received his 
law degree from Florida State University.
    Mr. Parks, please proceed.

     STATEMENT OF DARYL D. PARKS, PRESIDENT, NATIONAL BAR 
               ASSOCIATION, TALLAHASSEE, FLORIDA

    Mr. Parks. Thank you very much. My name is Daryl Parks. I 
am the president of the National Bar Association, which is the 
largest association dedicated toward the advancement of black 
attorneys and judges in the Nation, enjoying a very strong 
history of civil rights and voter empowerment advocacy. I want 
to thank Senators Durbin and Nelson and the entire Senate 
Judiciary Subcommittee for convening this important forum to 
examine the alarming consequences of Florida's law, H.B. 1355, 
which restricts early voting and overly burdens third-party 
groups in their efforts to help register people to vote.
    In light of the many years of working in Florida and my 
work with the NBA, I greatly appreciate this opportunity to 
comment upon the negative effect H.B. 1355 will have upon the 
right to vote and, in particular, the disparate impact it will 
have upon the voting rights of members of the African-American 
community.
    The proliferation of oppressive voting laws sweeping this 
Nation by many accounts is just as insidious as the Jim Crow 
laws of the 1950's, if not worse. Nearly 50 years after Bloody 
Sunday in 1965 when Alabama Governor George Wallace sicced 
State troopers on civil rights archers attempting to cross the 
Edmund Pettus Bridge, we are once again fighting attacks 
against our fundamental right to vote.
    The statistics have been well cited. According to the 
recent study released by the Brennan Center, over 5 million 
voters could be kept from polls due to new voting laws. 
Florida's laws are particularly troubling because, as we will 
hear more from my other colleagues on this panel, these new 
restrictions are clearly targeted against certain communities. 
These communities include mainly African-Americans and Latinos, 
but also students, people with disabilities, the elderly, and 
other minority populations. Today I will focus primarily on the 
impact upon the African-American community.
    The significant and projected impact of this legislation 
cannot be emphasized enough. These restrictions will 
drastically change the electoral landscape. Black and Latino 
voters today make up 20 percent of the vote nationwide and are 
projected to rise to 45 percent by 2050. This is a critical 
swing vote in many States, and it is through this lens that we 
must consider the utility and impact of H.B. 1355 in a 
Presidential swing State like Florida.
    H.B. 1355's impact on African-American community. 
Restrictions burdening third-party groups helping people 
register to vote. Statistics. The improvements in voter 
registration seen in the African-American community were in 
large part a result of focused efforts by third-party voter 
registration groups to register new and underrepresented 
classes of voters.
    In Florida, the U.S. Census Bureau data from the 2004 to 
2008 election cycle show that African-Americans relied on 
third-party registration drives more than white voters and that 
minority reliance on such drives is greater in Florida than 
elsewhere in the country. In fact, African-American citizens in 
Florida are more than twice as likely as white voters to 
register to vote through private drives.
    Some of the data is startling. In 2004, while 6.6 percent 
of non-Hispanic whites in Florida indicated they registered 
through private drives, 17.4 percent of African-Americans and 
18.9 percent of Hispanic voters in Florida registered in this 
manner. In 2008, while 6.3 percent of non-Hispanic white 
registered voters in Florida were registered through drives, 
12.7 percent of black voters and 12.1 percent of Hispanic 
registered voters and 6.3 percent of white voters were 
registered through drives.
    Restrictions limiting early voting. Restricting early 
voting opportunities will also have a significant negative 
effect on the African-American community voting. In the 2008 
general election, not only did African-Americans cast more 
early in-person ballots than they cast on election day, but 
African-Americans accounted for a much greater proportion of 
the early voting electorate than they did on election day.
    This is why H.B. 1355 is particularly alarming. As my 
colleague Daniel Smith has just stated, African-Americans only 
make up 13 percent of the population, but they made up 22 
percent of the actual voting electorate, with a high percentage 
voting during the early voting period. This is because of 
programs like Souls to Polls where our efforts in the African-
American community is to encourage participation. H.B. 1355's 
restriction preventing voting on the Sunday before the election 
is a direct effort to undermine such programs.
    Historically, places of worship within the African-American 
community allowed their members to travel to voting sites from 
church. In an effort to encourage voting within their 
community, church leadership would organize different 
initiatives called ``Souls to Polls'' within their church that 
would emphasize the importance of exercising the right to vote 
in sermons, register youth membership to vote, and encourage 
them to participate in the electoral process, invite local 
leaders to speak to their membership about the importance of 
voting, and more importantly, these efforts would culminate on 
the Sunday before the election that would organize bus trips 
and/or car pools to the polls on the Sunday before the 
election. In addition, when resources were available, churches 
would provide transportation for non-members to voting polls as 
well.
    Statistical evidence shows that African-Americans 
participated in voting drives of this nature in proportions far 
greater than whites. In fact, 33.2 percent of those who voted 
early on the Sunday before election day during Florida's 2008 
general election were black, whereas blacks only constituted 
13.4 percent of all early voters for all voting days.
    In conclusion, the 2010 elections reinforced what we have 
known since November 2000. Our system of election 
administration needs reform, and efforts to deny minority 
voters full access to the franchise persists. Restrictions on 
early voting and voter registration do little to secure our 
electoral system, yet a lot to create more barriers and 
problems for elderly voters. The National Bar Association will 
continue to aggressively protect the right to vote for all 
voters and work to ensure the enforcement of our Nation's 
voting rights laws. We urge State lawmakers to focus on passing 
legislation that addresses real problems such as deceptive 
practices or compromises the voter registration system instead 
of disregarding or undermining the very right that so many have 
fought and died for.
    Thank you.
    [The prepared statement of Mr. Parks appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Parks.
    Brent Wilkes is the national executive director for the 
League of United Latin American Citizens. He has worked in 
various capacities for LULAC since 1988 and assumed the newly 
created position of national executive director in 1997. He 
currently serves as Chair of the Civil Rights Committee of the 
National Hispanic Leadership Agenda, graduated from Dartmouth 
with a major in government and philosophy.
    The floor is yours.

  STATEMENT OF BRENT A. WILKES, NATIONAL EXECUTIVE DIRECTOR, 
    LEAGUE OF UNITED LATIN AMERICAN CITIZENS, WASHINGTON, DC

    Mr. Wilkes. Thank you, Chairman Durbin, Senator Nelson, and 
members of the Judiciary Committee for bringing this important 
issue to our attention and allowing us to testify today.
    My name is Brent Wilkes, and I am the national executive 
director of the League of United Latin American Citizens. We 
were founded in 1929, and we are known as the largest and 
oldest Hispanic membership organization in the United States. 
LULAC is organized into more than 900 councils, local 
grassroots councils. We have a presence in Hispanic communities 
all across the country, including 15 longstanding LULAC 
councils here in Florida.
    The mission of LULAC is to advance the economic condition, 
educational attainment, political influence, health, and civil 
rights of the Hispanic population of the United States.
    Our volunteer members have been active in Florida for over 
50 years, and many can trace their roots in this State back to 
when it was still a Spanish possession. Matilda Garcia, who is 
our former State director, is right here, and she has been with 
us, first joined LULAC in the 1950's, but her family can trace 
its roots back to the 1880's when they were one of just 17 
families that settled here in Tampa.
    Many Americans think that most Latinos just arrived in the 
last decade or two, but the truth is that many of our members 
have never crossed the border. The border crossed them.
    These members have for decades worked with a broad 
coalition of grassroots organizations to improve the quality of 
life for Latinos, African-Americans, Native Americans, Asian 
Americans, women, seniors, and youth to ensure that the 
communities that we represent can fully participate in the 
democratic process and live the American dream.
    LULAC in Florida has worked with the NAACP, the ACLU, the 
League of Women Voters, Rainbow/PUSH, Rock the Vote, Mi Familia 
Vota, State Voices of Florida, Democracia, NCLR, the Florida 
Public Interest Group Education Fund, and many, many other 
groups to help register and bring to the polls American 
citizens that have traditionally been underrepresented and in 
many cases deliberately excluded from Florida's democratic 
process. Together these organizations work to register tens of 
thousands of voters across the State that the State of Florida 
has failed to register or in many cases has actually purged 
from the voter registration rolls without explanation.
    Unfortunately, Florida's H.B. 1355 is really a transparent 
attempt to discourage Latino, African-American, senior, youth, 
and other vulnerable populations in Florida from registering to 
vote and to suppress those populations from participating in 
Florida's democratic process.
    In the words of Reverend Charles Mckenzie of Rainbow/PUSH 
and a resident of Tampa, the law is a ``conspicuous and 
egregious assault on the right of all Floridians to vote.''
    Denise Velazquez Marrero, who is the executive director of 
State Voices of Florida, calls it ``legislative voter 
suppression.''
    And Howard Simon of the ACLU states that with the passage 
of H.B. 1355 and bills like it, Florida has now become the 
capital of voter suppression and voter disenfranchisement in 
the United States.
    The provisions of this law are unnecessary, restrictive, 
and punitive. None of them address the few instances of voter 
irregularities that have taken place in Florida. In our 
opinion, they will actually make it much more likely that 
inadvertent mistakes will be made because of the unrealistic 
and unnecessary deadlines the bill requires for filing voter 
cards. In fact, the law's only effect would be to narrow the 
civic engagement of Latinos, African-Americans, youth, seniors, 
and vulnerable populations.
    By requiring third-party voter registration organizations 
to submit voter registration applications within 48 hours of 
receipt instead of the 10 days provided in the previous law and 
imposing a fine of $50 for each failure to comply that could 
lead to fines as high as $1,000, the authors of H.B. 1355 
without a doubt have sought to punish the broad coalition of 
organizations engaged in voter registration in Florida.
    The authors of H.B. 1355 had to be aware of the fact that 
more than one-third of voters that were registered through 
third-party drives in 2008 were racial minorities, and they 
knew that this provision in H.B. 1355 would greatly discourage 
our volunteers and staff from registering voters in the State. 
Just as alarming, the new deadline actually makes it much more 
likely that mistakes will be made on voter forms because we 
will not have the time to do our due diligence and ensure that 
the forms are completed completely and accurately.
    When LULAC registers voters, we have them checked by 
supervisors and entered into a database designed to catch the 
mistakes on the forms. This process takes time, which we no 
longer have thanks to H.B. 1355.
    There is also great confusion on how the 48 hours are to be 
calculated. Do applications filed after hours, on weekends, and 
Federal holidays count? I just learned this morning that 
Florida counted the Martin Luther King Jr Holiday as part of 
the 48 hours to submit the voter forms. What an incredible, 
shameful act to take the holiday in honor of a man that did 
more than any other American to champion the cause of 
minorities and disenfranchised and use it as a weapon to attack 
those of us who are attempting to follow in his footsteps and 
realize his mission.
    We believe without question that this provision is a 
retrogressive policy in violation of the Voting Rights Act and 
creates a significant barrier for racial and language minority 
voters in Florida who are protected under the Voting Rights 
Act.
    Second, the reduction of the number of days for early 
voting from 18 days to 8 days is a transparent strategy to 
impact minority voting. I know one of your previous panelists 
mentioned that he did not think this would impact minority 
voting, but the loss of Sunday voting in particular was clearly 
done to end the tradition of Latino and African-American voters 
from going to the polls after church. As Ben Jealous, the 
president of the NAACP has said, ``Latino and African-American 
pastors in Florida have encouraged their congregations to 
discharge their civic duty after they took care of their 
spiritual responsibility.'' H.B. 1355 makes that impossible.
    Third, Florida families, especially minority families, have 
been hit hard by the foreclosure crisis, and many families 
losing their homes have had to move across county boundaries. 
H.B. 1355 adds insult to injury by preventing and making it 
very likely that these families will not be allowed to vote 
because they are going to go to the polls--they are used to 
being able to change their address right there at the polls--
and they are going to have to file a provisional ballot, which 
we just heard probably will not be counted.
    The Latino and African-American communities in Florida are 
diverse and growing in number every election cycle, yet our 
voter registration rates do not reflect this growth. Out of the 
2.1 million Latinos eligible to vote in Florida, only 1 million 
are registered to vote. This law will hurt the mission of civic 
organizations like LULAC and many others that are part of our 
broad coalition, where part of our mission is to engage 
Hispanics and African-Americans in the democratic process. The 
restrictions of the law place an unnecessary burden, 
unreasonable burden on voter registration initiatives to 
register folks who are non-English proficient and whose 
information must still be verified before submitting the voter 
registration information to the State.
    To the political operatives who helped craft this bill, 
they are just looking at the numbers, and they are just trying 
to see how they can help their political allies, the folks that 
helped pass the bill, get elected. But the fact is for those of 
us who represent minority communities and the disenfranchised, 
we have fought for many years for these rights. We have bled. 
Early this morning there was a press conference in which we 
talked about how people have lost their lives fighting to 
preserve these rights. To us it is not just numbers; it is not 
just partisan politics trying to get people elected. It is 
realizing the American dream and making sure we preserve the 
promise of America, and we implore you to try to do all that 
you can to protect that right.
    Thank you.
    [The prepared statement of Mr. Wilkes appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Wilkes.
    Sarah Pemberton is a senior majoring in paralegal studies 
at St. Petersburg College in St. Petersburg, Florida. After 
graduating, she plans to attend law school and pursue a career 
in intellectual property law. She currently serves as the State 
president of the Florida College System Student Government 
Association. For more than 50 years, this association has 
represented Florida's 1.3 million community and junior college 
students at 28 campuses throughout the State.
    Ms. Pemberton, please proceed.

STATEMENT OF SARAH PEMBERTON, PRESIDENT, FLORIDA COLLEGE SYSTEM 
      STUDENT GOVERNMENT ASSOCIATION, CLEARWATER, FLORIDA

    Ms. Pemberton. Thank you, Chairman Durbin, Senator Nelson, 
other members of the Subcommittee who could not be here today, 
and guests. I am honored to have the opportunity to speak on 
behalf of the students of the State of Florida.
    A top priority of the Florida College System Student 
Government Association is to ensure that our students are 
actively engaged in their civic duties. One of the hallmarks of 
this engagement is voting. The task for FCSSGA is not easy, as 
it is no secret that students are among the most 
underrepresented classes of people at the polls. H.B. 1355 
contains four provisions that present obstacles to voter access 
among this class. They include provisions on early voting, 
provisional ballots, third-party voter registration, and State 
and local primaries. I will address each of these provisions 
and obstacles they present to students. In the remaining time, 
I will address Senate Bill 516 from this legislative session 
that poses a solution to the inherent problems with House Bill 
1355.
    First, to address early voting. H.B. 1355 includes a 
provision that cuts early voter days from 14 to 8, discontinues 
Sunday voting. Much of this we have already heard today. These 
new provisions will hit the students hard because the lives of 
these students are hectic and busy. In the Florida College 
System, we can characterize our students by CCC, or a card-to-
class-to-car experience.
    One example of the type of student who will be impacted by 
this law is Jane. Jane is a 28-year-old female student in my 
program. She works a full-time job and is also a full-time 
student. Her day begins by going to work at 9:00, she leaves at 
5:00, and in the 2 hours before class, she is prepping and 
commuting to go to school. From there she is in the classroom 
7:00 to 9:40. She will be directly impacted by the cut of early 
voter days because she has no time in the regular days to 
ensure that she can vote. Saturday and Sunday voting is 
essential to students like Jane.
    Next to address provisional ballots. House Bill 1355 
provides that a voter may no longer change their address at a 
polling place by filling out an affirmation agreement. The 
State of Florida has a unique provision in place that allows 
students who attend State or community college to seamlessly 
transfer to a university in the State of Florida with a full 
transfer of all credits. This agreement between State colleges 
and universities is an incentive for our students to attend 
community college first where they will get the tools to be 
successful in university.
    One of the side effects of this agreement is that students 
will often change their county of residence after completing 
their degree at a State college to attend a university in this 
State. The 2008 U.S. Elections Assistance Commission survey 
cited 51 percent of provisional ballots were not counted. 
Students who were participating in the democratic process are 
less likely to participate knowing that their vote has a 51-
percent chance of not counting.
    The next provision I would like to add is third-party voter 
registration. One of the numerous provisions H.B. 1355 requires 
that third-party voter registration organizations are required 
to be registered and submit required information. In the event 
that this provision is not met, many, many heavy fined will be 
levied against them.
    Many of the groups that used to participate in voter drives 
are no longer able to do this because they are not able to risk 
the fines. This is especially true for student organizations 
like mine. College campuses' Student Government Associations 
are known for having voter registration drives on their 
campuses, and we are no longer able to do those things because 
we as students cannot risk those fines. As a result of this, 
many students who would normally discover the political process 
through their time in college will not be engaged in the same 
way that they have been in years past. We will see a decline in 
the number of students who are registered to vote, who will as 
a result not fulfill not only their civic right but their civic 
duty.
    The last provision I would like to address is State and 
local primaries. The new provision requires it to be 12 weeks 
before the general election. This is a seemingly harmless 
change; however, many of our college students are not going to 
be back in their universities until the week after the primary 
will be held this year. This effectively eliminates an entire 
class of people from voting in the primary election.
    We understand that problem spotting is easy, so we looked 
to find a solution to the inherent problems of House Bill 1355. 
That solution came to us in the form of Senate Bill 516. Under 
this new piece of legislation, there would be more available 
places for early voting, including college campuses. The 
disenfranchised would have a new opportunity to get involved 
right here on their campuses. Additionally, the number of early 
voting days and hours would be extended by this legislation. 
This small but vital step in counteracting the harm of H.B. 
1355 is imperative.
    The students of the State of Florida believe that the right 
to vote is fundamental to our style of government. We strongly 
urge the Committee when evaluating claims that this law makes 
it harder for tens of thousands of elderly, disabled, minority, 
young, rural, and low-income Floridians to register and 
exercise their right to vote to err on the side of American 
values.
    [The prepared statement of Ms. Pemberton appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. Pemberton. Let me ask a few 
questions----
    [Applause.]
    Chairman Durbin. Professor Smith, we are talking about 
voting on a day other than election day, and there are actually 
at least two approaches that come to mind. One we have talked 
about at great length--early voting. And there is another 
approach, of course, which involves absentee voting. What have 
you found relative to those who use each opportunity: those 
more likely to engage in early voting as opposed to those more 
likely to engage in absentee voting?
    Mr. Smith. Thank you, Mr. Chairman. This is a not-well-kept 
secret by politicos in Florida about which political party 
tends to vote early versus have their supporters vote absentee. 
The Republican Party of Florida has been very successful, and 
is quite admirable in terms of their efforts, to reach out to 
their supporters, having them request absentee ballots, and 
having them sent in. The Democratic Party, for whatever its 
reason, has chosen not to use that strategy. There is clearly a 
difference in terms of the half of the population that was 
registered to vote in 2008 in the general election that voted 
early as opposed to absentee. And it is almost opposite in 
terms of Democrats disproportionately voting early, Republicans 
disproportionately voting absentee.
    What I should note is that H.B. 1355 does nothing to affect 
anything with respect to voting early through an absentee 
ballot, and, in fact, if you want to talk fraud--and the 
supervisors I am sure can attest to this--in the State of 
Florida, when there is voter fraud, it is through absentee 
ballots. It is not done on election day. It is not done early.
    [Applause.]
    Mr. Smith. It is not done through early voting. It is not 
done with Mickey Mouse registering and then voting. It is done 
through absentee ballots. The percentage is very small, but it 
exists. We just had a Florida Department of Law Enforcement 
investigation of absentee ballot fraud going on in Madison 
County--the ``Madison Nine'' I think they are known as--in 
which in a local school board election, several individuals in 
support of a candidate solicited absentee ballot forms for 
other people, either filled them out or were there when the 
voter filled them out and advised them on how to fill them out, 
and then brought them back into the supervisor of election. 
Nothing in H.B. 1355 touches this type of fraud. In fact, it 
makes it easier for individuals who are not the person who is 
going to be voting on the absentee ballot to request an 
absentee ballot and have it sent not even to that person's 
address that is on the books.
    So if the State legislature really wanted to crack down on 
fraud, certainly they probably should have considered at least 
some of these problems with the absentee balloting that goes 
on.
    Chairman Durbin. Mr. Parks, you said at one point in your 
testimony that the census data indicates that African-Americans 
and Hispanic citizens in Florida are more than twice as likely 
as whites to register to vote through private voter 
registration drives. In 2004, that translated to 17.4 percent 
of African-Americans and 18.9 percent of Hispanics registering 
through voter registration drives compared to 6.6 percent non-
Hispanic whites.
    In light of these figures and the testimony we have already 
received, sworn testimony about the negative impact this has 
had on third-party nonpartisan organizations involved in voter 
registration, I think the conclusion is fairly obvious, but I 
would like you to state it.
    Mr. Parks. Well, without question when you put that type of 
burden on third party--especially students. My background is as 
a student leader. And on the campuses when you have students 
who want to have voter registration drives and voter 
registration drives in the broader black community, folks are 
not going to do it given the burden that has been placed on 
them by this House bill. So without question it is very clear 
that by putting this extra burden on it, those numbers are 
going to go down given the heavy burden they now have to face.
    Chairman Durbin. Mr. Wilkes, is that the way you see it?
    Mr. Wilkes. Absolutely. I think when you consider the fact 
that Latinos and African-Americans are more likely to have 
moved and changed address so they need to re-register, or 
Latinos are more likely to be new citizens and need to 
register, they are getting missed by the traditional 
registration strategies that exist in any State but here in 
Florida as well. And because of that, the third-party voter 
registration efforts are absolutely key to make sure that those 
voters get registered, and this is a chilling effect on those 
efforts. They are trying to frighten us into not doing our job, 
and it is unfortunate because we are really helping the State. 
We are helping them preserve the democracy here in the State, 
and yet the feeling amongst all of us is that when you go to a 
volunteer, like Matilda--she has worked for 50 years for this 
organization trying to help people register to vote. I am going 
to tell her that she could get fined $1,000 because she is 
trying to do something that she has done all this time? That is 
going to scare our volunteers. It is going to scare our staff. 
It is going to scare your organizations. And a lot of members 
of this broad coalition have already said they are not going to 
register voters anymore in the State.
    Chairman Durbin. Ms. Pemberton, the earlier panel talked 
about students marching from Bethune Cookman--is that correct? 
Is that a historically black college?
    Mr. Parks. Yes.
    Chairman Durbin. A historically black college, coming in to 
register, and Supervisor McFall noted that if the students had 
changed dorm addresses, they would be given provisional 
ballots. Not reflecting on her county specifically but, rather, 
the statistics from Professor Smith, I was shocked by the wide 
disparity of what happens to provisional ballots. Under the 
best of circumstances, from your report, 60 percent are counted 
in the end. Under the worst, 6--I should not say that. You had 
a few counties that had 100 percent.
    Mr. Smith. There were some at 100 percent. Very small.
    Chairman Durbin. There were half a dozen counties that 100 
percent, but in the ones you reported, 60 percent as against 
6.3 percent, which goes to your point. If students do not think 
their ballots are going to be counted because they have changed 
dorms between elections, they are discouraged from 
participating. Is that not the case? I mean, you said as much, 
and as I listened to these provisional ballot statistics, it 
really reinforces it.
    Ms. Pemberton. It is. We have to bear in mind that college 
is an opportunity for students to really learn about the 
political process and begin their endeavors in civic 
engagement. It is hard enough to get them to the polls, and now 
as they are discovering, the ones that are becoming involved, 
that it is a common practice in university that when you come 
back, you may not be in the same dorm that you were in when you 
got there, and now when you go to the poll and you have taken 
this time to do these things and get informed about the 
candidates and take the time to vote, that your ballot has, at 
best, a 60-percent chance of being counted, that is not an 
incentive for a disenfranchised group of people to vote.
    Chairman Durbin. Let me just----
    [Applause.]
    Chairman Durbin. I am going to close, if you do not mind, 
Bill, Senator Nelson, by referring to the testimony of 
Superintendent Ertel because he made this point several times, 
and I told him I was going to bring this up when Professor 
Smith was here, and I am going to read his testimony verbatim 
based on his own sampling and conclusions. And he said: ``While 
we do not have real statistics on the voting habits of hard-
working single mothers, I pulled the real data for the black 
and Hispanic community from the only statewide election 
conducted under the new law--the current election. Based on my 
data,'' Superintendent Ertel said in testimony, ``from this 
very election, Sunday is actually the least likely day that a 
black voter will cast their ballot and the second least likely 
day that a Hispanic voter will cast their ballot. Of all the 
black voters who have cast an early voting ballot in the first 
5 days of this election, only 7 percent did so on Sunday. Of 
the Hispanic voters who cast an early voting ballot in the 
first 5 days of this election, only 16.95 percent did so on 
Sunday.''
    Could you react to Superintendent Ertel's observations?
    Mr. Smith. I would not deny that his statistics are 
correct, but let us look at the context of the Presidential 
primary election that is going on right now. Last I checked, 
President Barack Obama does not have an opponent in Florida. In 
fact, Democrats are not given a Presidential ballot to vote on. 
They may have some local races if you are a registered Democrat 
or if you are registered no-party-affiliate. Republicans are 
the ones that are turning out, and we know the proportion of 
both Hispanic as well as African-American Republicans in the 
State. It is a fraction of what a general electorate in a 
general election is going to look like.
    I would encourage Mr. Ertel to go back and look at his 
statistics from Seminole County in 2008 when it was, admirably, 
one of just a handful--10 counties--that actually allowed 
Sunday voting, and to look at the proportion of African-
Americans and Hispanics and whites that voted on that final 
Sunday in his particular county. I can assure you that it is 
going to look very much like this figure, which 
disproportionately shows African-Americans and Hispanics came 
out to vote on that final Sunday relative to the white voters 
who voted the rest of the week at a much higher proportion.
    Chairman Durbin. Thank you.
    Senator Nelson.
     Senator Nelson. Thank you, Mr. Chairman.
    Mr. Wilkes, from your testimony, if someone is unfortunate 
enough to have their home foreclosed and they have to move into 
rental housing, you mentioned in your testimony that the law 
fails to take that into account, the new law. Can you 
elaborate?
    Mr. Wilkes. Absolutely. If they have to move across county 
lines, in the past they could go in, they could vote--not a 
provisional ballot but an actual vote--and at the same time 
update their address. In the new law, without explanation, they 
have now said it is a provisional ballot that you vote. You can 
still update your address, but now you are voting with a 
provisional ballot, which we have just learned rarely gets 
counted.
    So these are folks who have already been devastated. They 
lost their homes. They lost their income. And they are trying 
to participate still in our democratic process and hope to 
elect someone who can see their plight and take action to help 
those individuals. And then they go to the ballot box, and they 
are told they cannot vote an actual vote that is going to be 
sure to count. I think that that is despicable, honestly. I 
mean, I cannot imagine why the State of Florida--why would they 
do that to these poor folks? We know it is a huge problem in 
the State. Why aren't they helping them? Why are they trying to 
make life more difficult for them?
     Senator Nelson. So a demographic that is more likely to 
rent because of income level and a demographic that would more 
frequently change addresses as renting one place and then 
moving to another, if it crossed a county line, they are going 
to be caught in this Catch-22. Is that your testimony?
    Mr. Wilkes. That is absolutely correct, with the addition 
of, unfortunately, once again, those folks tend to be 
disproportionately African-American, Latino, you know, seniors, 
folks who are most likely to be disenfranchised in the first 
place, and now there is yet another additional burden being 
imposed by this bill.
     Senator Nelson. Mr. Parks, would you elaborate on why the 
houses of worship are a place to encourage voter participation 
in your experience?
    Mr. Parks. Well, I think certainly without question, 
Senator Nelson, historically one of the challenges in the 
African-American community has been getting the voter 
involvement, and so that has continued to be a huge battle in 
the African-American community. Then we get to the point where 
because we tend to socialize traditionally in the churches, as 
probably the number one place in the African-American 
community, it became the place that African-Americans could use 
as a place to encourage each other to vote.
    I think you have to also think about the work dynamics 
here. I think most African-Americans tend to have to work if 
not one job, sometimes a second job to survive in certain 
situations. The one time that you do get a chance to socialize 
in our community is at church, and that is why probably more so 
than ever it is so important that the churches be allowed to 
have that Sunday participation which we are being denied.
    I think without question, though, from a legal standpoint 
here, we realize that this particular law has a disparate 
impact on African-Americans, and I think that becomes, I think, 
as Senators one of the points that we want you all to consider 
in your discussions as you consider this House bill.
     Senator Nelson. Professor, you have written about the fact 
that Florida in this Presidential primary is operating under 
two different laws. The five counties, including this one, 
Hillsborough, that are under the watch under the Voting Rights 
Act of 1965 are under a set of one laws, which is the old law, 
and the remaining 62 counties are operating under the new law 
that is the subject of this hearing. Do you want to comment on 
that?
    Mr. Smith. Yes. It kind of makes a mockery of Bush v. Gore 
in terms of having some uniform standard in which everyone in 
the State needs to be voting under. We have had early voting 
going on for almost 2 weeks in those five Section 5 Voting 
Rights Act counties which are still under the jurisdiction of 
the Federal Justice Department, and they have not yet granted 
preclearance because of concerns about how truncating that 
Sunday voting as well as eliminating the first 5 days of early 
voting may affect disparately different demographic and racial 
minorities.
    You know, I find it terribly ironic that here in 
Hillsborough early voting has been going on since Martin Luther 
King Day, that Monday. Next door, just going across the 
causeway, over in Pinellas County it did not start until that 
following Saturday. And, of course, in Hillsborough, according 
to information posted on the Secretary of State's website, you 
will be able to vote early on that final Sunday as opposed to 
in other counties surrounding it.
     Senator Nelson. So if you live in Hillsborough--this is 
Friday--you can vote this Sunday.
    Mr. Smith. That is correct, according to information posted 
on the Secretary of State's website.
     Senator Nelson. But if you live in Pinellas or Pasco, you 
are not going to be able to vote in the Republican primary this 
coming Sunday.
    Mr. Smith. That is correct, according to the Florida 
Secretary of State.
     Senator Nelson. Mr. Chairman, I have no further questions. 
I would like to make a concluding comment at the appropriate 
time.
    Chairman Durbin. Thank you, Senator Nelson, and thank you 
very much to the panel.
    I suppose the first and obvious question is: Why is this 
Subcommittee meeting in Tampa today? Why have we decided to 
come down here and address a State law, 1355, changing the 
voting process in the State of Florida? Some people might say, 
``Well, everybody watches Florida elections, at least since 
2000.''
    [Laughter.]
    Chairman Durbin. And that is true. More eyes have been 
focused on this State since the year 2000 than many other 
States.
    Second, people would say, ``Well, Florida is in a special 
category when it comes to the Voting Rights Act.'' This is a 
50-year-plus legacy of some very bitter experiences where the 
Federal Government continues to supervise and preclear laws on 
voting to make sure that there is no discrimination. That is 
certainly true.
    The third point goes to some testimony given by the current 
Chief Justice of the Supreme Court before our Senate Judiciary 
Committee when he was asked about voting, and he said of 
voting, ``the right that is preservative of all other rights.'' 
``The right that is preservative of all other rights.''
    We value our rights in this country. All across this 
political spectrum we value them. But most fundamentally we 
value our right to vote because that determines whether we will 
maintain this democracy, whether we will maintain the 
confidence of the voters in this democracy, and whether we will 
continue to set an example for the world, an example which 
they----
    [Applause.]
    Chairman Durbin. An example which they frequently cite when 
they take to the streets and the polling places in their 
countries and determine what their future will be: ``We want to 
be like America.''
    We came here today, and we heard testimony, and I thank 
both panels. I thought all of them did an extraordinary job in 
laying out what this issue really comes down to. The decision 
by the Florida Legislature and the Governor to change the law 
is going to work a real disadvantage to some people. It is 
going to limit the opportunity for early voting. It is going to 
limit the opportunity for nonpartisan groups to register people 
to vote. It is going to limit the places where people can vote. 
And, unfortunately, it is difficult to escape the political 
reality. It is going to have a greater impact on minorities, on 
blacks and Hispanics, on the young and the poor and the elderly 
than on other groups. That is not consistent with the values 
that we should bring to this conversation.
    I thank Senator Nelson for this invitation for the first 
field hearing of this Committee. I think it was appropriate 
that we were in Tampa, Florida, today discussing the right that 
is preservative of all other rights.
    Senator Nelson.
     Senator Nelson. Mr. Chairman, I want to thank you for 
making this a historic field visit at a very important time. On 
the basis of your comments and the comments of all of the 
excellent panelists--and we do appreciate everyone--I was 
reminded that it was in the 1800s that Susan B. Anthony, who 
was trying everything that she could for the rights of women, 
made a very similar statement to what you just quoted the Chief 
Justice as making. She said, ``All the other rights are going 
to be protected only if women have the right to vote.'' And so, 
too, we have seen that struggle in our country's history, the 
contrast, as the Chairman has mentioned, with other countries. 
Look what is going on in Syria right now.
    Now, this country is unique in the Constitution and its 
legal system and the rule of law. That is what sets us apart 
from the rest of the world. That is something that we must 
preserve. And so, Mr. Chairman, I want to thank you for coming 
down here because I think that that rule of law has been 
assaulted here in this State by this election law under the 
pretense of cutting down on election fraud. And for you to come 
here with this Committee to underscore how high the stakes are 
right now, can you believe that America in the year 2012 is 
facing this challenge?
    Thank you, Mr. Chairman.
    [Applause.]
    Chairman Durbin. Thank you.
    As a measure of the interest in this hearing, we not only 
have a packed courtroom, but there are more than 200 people in 
the overflow rooms watching this hearing as well. In addition, 
dozens of organizations have submitted statements for the 
record, including the ACLU, NAACP, the Brennan Center, A. 
Philip Randolph Institute of Central Florida, Disability Rights 
Florida, Florida Consumer Action Network; Ion Sancho--I hope I 
pronounced that correctly--Leon County Supervisor of Elections; 
the Lawyers Committee for Civil Rights Under the Law, Mi 
Familia Vota, the Leadership Conference on Civil Rights, 
Rainbow/PUSH of Florida, and the New Covenant Baptist Church of 
Orlando, and without objection their statements will be placed 
in the record.
    [The statements appears as submissions for the record.]
    Chairman Durbin. I want to thank those organizations, 
particularly thank our panels, the witnesses who testified.
    We will keep the hearing record open for a week to receive 
additional statements, and written questions for the witnesses 
may be submitted from members of the Committee, and I hope they 
can respond in a timely way.
    And if there are no further comments from our panel or 
colleagues, thanks to the witnesses, thanks to Senator Nelson, 
and this hearing stands adjourned.
    [Applause.]
    [Whereupon, at 2:55 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
